No. 19-1203
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CHILDREN’S HOSPITAL ASSOCIATION OF TEXAS, ET AL. PETITIONERS
v.
ALEX M. AZAR, II SECRETARY OF HEALTH AND HUMAN
SERVICES, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 7th day of August 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6,426 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
August 7, 2020

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 7, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-1203
CHILDREN'S HOSPITAL ASSOCIATION OF TEXAS,
ET AL.
ALEX M. AZAR, II, SECRETARY OF HEALTH AND
HUMAN SERVICES, ET AL.

ADITYA DYNAR
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-869-5210
ADI.DYNAR@NCLA.LEGAL
KIMBERLY S. HERMANN
SOUTHEASTERN LEGAL FOUNDATION
560 W. CROSSVILLE ROAD
SUITE 104
ROSWELL, GA 30075-7509
770-977-2131
KHERMANN@SOUTHEASTERNLEGAL.ORG
DANIEL G. JARCHO
ALSTON & BIRD LLP
950 F STREET, NW
WASHINGTON, DC 20004
DANIEL.JARCHO@ALSTON.COM
W. SCOTT O'CONNELL
NIXON PEABODY LLP
900 ELM STREET
14TH FLOOR
MANCHESTE, NH 03101
603-628-4000
SOCONNELL@NIXONPEABODY.COM

DAVID B. SALMONS
MORGAN, LEWIS & BOCKIUS LLP
1111 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
202-373-6283
DAVID.SALMONS@MORGANLEWIS.COM

